Nos. 19-840, 19-841
IN THE

Ou,prente Court of tbe eittiteb Mateo
THE STATE OF CALIFORNIA, et al.,
Petitioners,
v.
STATE OF TEXAS, et al.,
Respondents.
UNITED STATES HOUSE OF REPRESENTATIVES,
Petitioner,
v.
STATE OF TEXAS, et al.,
Respondents.
On Petitions for Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

BRIEF AMICI CURIAE OF NATIONAL HOSPITAL
ASSOCIATIONS IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,829 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 15, 2020.

(1- /
Cohn Casey ogan
Wilson-Epes Printing Co., Inc.

